<html>
<title> - HUMAN RIGHTS ABUSES AND CRIMES AGAINST HUMANITY IN NORTH KOREA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     HUMAN RIGHTS ABUSES AND CRIMES AGAINST HUMANITY IN NORTH KOREA

=======================================================================



                          MEETING AND HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2014

                               __________

                           Serial No. 113-197

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
88-389                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--5/20/14 
    noon deg.
SEAN DUFFY, Wisconsin--5/
    29/14 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                BRIEFER

The Honorable Lee Jong Hoon, Ambassador-at-Large for Human 
  Rights, Republic of Korea......................................     4

                               WITNESSES

The Honorable Andrew Natsios, co-chair, The Committee for Human 
  Rights in North Korea..........................................    29
Shin Chang Hoon, Ph.D, director, Center for Global Governance, 
  Asan Institute for Policy Studies..............................    43
Mr. Shin Dong Hyuk, survivor of North Korean prison camp.........    56

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Lee Jong Hoon: Prepared statement..................     7
The Honorable Andrew Natsios: Prepared statement.................    33
Shin Chang Hoon, Ph.D: Prepared statement........................    45
Mr. Shin Dong Hyuk: Prepared statement...........................    59

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Lee Jong Hoon: Crimes against humanity report......    76
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement from the U.S. Commission on 
  International Religious Freedom................................    80


     HUMAN RIGHTS ABUSES AND CRIMES AGAINST HUMANITY IN NORTH KOREA

                              ----------                              


                        WEDNESDAY, JUNE 18, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good afternoon.
    Today's briefing, which will then become a hearing and it 
is just due to technical regulations proscribed by the 
committee and by the House, hearing from an Ambassador cannot 
be done in a hearing setting but it is a briefing. It is really 
a distinction without a difference.
    So today's hearing and briefing deserve to turn the world's 
attention to the systematic abuse of human rights in North 
Korea, which amount to crimes against humanity by perhaps the 
world's most repressive totalitarian regime.
    And so very correctly, as stated in the United Nations 
Commission on Inquiry report on North Korea, such a regime is a 
state that does not content itself with ensuring the 
authoritarian rule of a small group of people but seeks to 
dominate every aspect of its citizens' lives and terrorizes 
them from within. So by definition this is not an authoritarian 
regime, it is an absolute dictatorship and totalitarian regime. 
For in the Democratic People's Republic of Korea we see a state 
that seeks to control all aspects of the lives of its citizens, 
not only their political lives but also that innermost 
sanctuary that we call conscience as well.
    The term ``hermit kingdom'' is applied to any nation that 
wilfully cuts itself off from the rest of the world either 
metaphorically or physically. This term was applied to Korea as 
long ago as the late 19th century, but it continues to be 
applicable to North Korea today.
    This is why the terrible human rights violations in North 
Korea are little noticed outside of foreign policy circles. We 
must see that the crimes of the North Korean regime are far 
more widely known, combated, and raised, and pushed against 
than they currently are now.
    The first step toward that, one, is what we are trying to 
do here today, to call in experts to present testimony on the 
horrific situation in North Korea where political prisoners 
serve as virtual slaves, where starvation is used as a 
political weapon, and where religious believers, Christians in 
particular, are imprisoned, tortured and killed with such 
ferocity that some say it amounts to genocide.
    In the past, and this is probably I think the sixth or 
seventh hearing that I have had on human rights in North Korea 
or the lack of them, we have heard from people, especially 
women who have been trafficked, who had made their way into 
China and then were sent back, involuntarily repatriated by the 
Chinese Government, only to be sent to a gulag where they were 
tortured and in many cases executed for leaving the country.
    So seeking to gain some liberty they ended up first being 
sex trafficked and then secondly exterminated and killed by a 
barbaric regime. Unfortunately, today's world's attention is 
distracted by manifold crises which seem almost to overwhelm 
us, and we will enumerate just a few.
    The breathtaking collapse in progress of the Maliki regime 
in Iraq, which we had supported at the cost of so much American 
blood and treasure, various humanitarian catastrophes in 
Africa, most notably the Central African Republic and South 
Sudan, which was the subject of a resolution passed just a few 
minutes ago, but also the presence of violent Islamist 
movements such as Boko Haram. I was just in Nigeria and saw the 
devastating impacts again of what that terrorist organization 
does to innocent people. And, of course, al-Shabaab in the 
major nation of Kenya where they have been hitting most 
recently.
    The ongoing tensions in Ukraine, as a restive Russia seeks 
to reassert the imperial hegemony over neighboring states and 
clashes in the South China Sea as an increasingly bellicose 
China makes a gambit to become a maritime power and fill a 
perceived vacuum.
    We have always lived in a wounded world, but today the 
tourniquets required to stop all the bleeding the world over 
would tax even the most compassionate of souls.
    Yet it is precisely this exhaustion of compassion that we 
must fight against. Compassion fatigue is not a luxury that we 
can afford and we must summon the necessary conviction to 
address the sufferings of the beleaguered people of North 
Korea.
    We will have testifying today an eyewitness to the 
barbarity of North Korea's cruel regime, a defector from North 
Korea who was born in a total control zone--political prison 
camp and he will give us an unsettling firsthand account of 
exactly what he experienced.
    The torture he endured and not simply physical torture, as 
horrific as that was, but was a psychological barbarity and 
such ruthlessness that once you have heard what he underwent 
your imaginations will forever be affected.
    Members of this subcommittee are no strangers to the 
brutality of starvation in many parts of the world, 
particularly in Africa. But today they will hear stories of 
starvation by design, how the denial of food is used as an 
instrument of wide scale torture.
    We will also hear about a North Korean nuclear program that 
goes beyond the headlines. Yet we do know that North Korea, in 
its quest for nuclear weapons, threatens to destabilize the 
world. But what many of us did not know and what we will hear 
today is the extent to which the North Korea nuclear program is 
built upon the cadavers of its own people.
    The United Nations Commission of Inquiry report, as 
important as it was, never explored the full extent to which 
workers in uranium mines are exposed to high levels of 
radiation and how even the most basic concern for the safety 
needs of workers are routinely ignored.
    Finally, I want to call attention to H.R. 1771, the North 
Korea Sanctions Enforcement Act. It is my hope that Congress, 
both House and Senate, will take to heart the testimony that is 
presented today and with a renewed focus on North Korea's human 
rights record pass this important legislation which takes a 
step for holding this rogue regime accountable for the sins 
committed against its own people.
    I, finally, just note parenthetically that we did invite 
Special Envoy Bob King. He is traveling. We will have him here 
as our Special Envoy for North Korean Human Rights Issues.
    His position was created as part of the North Korean Human 
Rights Act and we look forward to his testimony because he has 
worked very, very hard and I will just also remind my 
colleagues who were here he used to be the staff director for 
the Democratic side of the aisle for the Foreign Affairs 
Committee under Tom Lantos.
    So I yield to Ms. Bass.
    Ms. Bass. Okay. Chairman Smith, thank you for holding this 
hearing today. I would also like to thank our distinguished 
witnesses and I look forward to hearing your perspectives on 
the ongoing challenges to human rights in North Korea.
    I am also interested in hearing your perspective on what is 
ultimately at stake if efforts to address North Korea's human 
rights abuses are not sufficiently managed.
    As we prepare to hear from today's witnesses, I hope we can 
learn critical lessons from their experiences and use them to 
increase awareness and support for the improved protection of 
human rights in North Korea and across the globe.
    I am committed to working toward this end and look forward 
to working with my colleagues to find the most effective and 
sustainable solutions.
    Thank you very much and I yield back my time.
    Mr. Smith. Thank you very much. Mr. Marino.
    Mr. Marino. I have no----
    Mr. Smith. I would like to now welcome to the table 
Ambassador-at-Large for Human Rights of the Republic of Korea, 
Ambassador Lee. Lee Jong Hoon is the Republic of Korea's 
Ambassador-at-Large for Human Rights.
    He is also a member of the faculty of at Yonsei University 
where he directs its Centers on Korean and American studies. 
Ambassador Lee hosted a weekly television program on current 
affairs for 5 years and his writings and commentaries appear 
frequently in Korean and international media.
    He has written widely on East Asian affairs with special 
reference to foreign policy and security issues. In the last 
Korean Presidential election he advised President Park on 
foreign and security affairs.
    He also serves as co-chair of Save NK, a nongovernmental 
organization dealing primarily with North Korean human rights 
issues.
    Mr. Ambassador, welcome to the committee and please provide 
us with your statement.

 STATEMENT OF THE HONORABLE LEE JONG HOON, AMBASSADOR-AT-LARGE 
              FOR HUMAN RIGHTS, REPUBLIC OF KOREA

    Ambassador Lee. Good afternoon and thank you, Mr. Chairman, 
Ranking Member Bass and members of the subcommittee for giving 
me this opportunity to address you today. Before I begin I 
would ask that my written remarks be made part of the record.
    Mr. Smith. Without objection, so ordered.
    Ambassador Lee. Thank you. I would also like to thank your 
staff as well as the staff and volunteers at Human Liberty, 
without whose hard work and dedication today's briefing and 
hearing would not have taken place.
    In 1945, the sense of revulsion at what had taken place at 
Auschwitz, Treblinka, and other concentration camps was 
manifest not only in the Nuremberg trials but also in the 
adoption of the Universal Declaration of Human Rights.
    Together, these two events ushered in a sea of change in 
thinking about human rights. Subsequently, the community of 
nations has drafted and adopted a number of additional human 
rights instruments.
    Whether through sanctions or armed interventions, steps 
were taken against regimes that have blatantly violated the 
Universal Declaration's ideals. The Khmer Rouge in Cambodia, 
apartheid in South Africa, and the genocide in Rwanda are cases 
in point.
    One country that has largely escaped the world's notice, 
however, is North Korea, a country that is arguably the world's 
worst violator of human rights.
    Mr. Chairman, members of the subcommittee, we are all 
gathered here today because we share a common goal as well as a 
concern. The concern, of course, is the unrelenting deprivation 
of fundamental human rights in North Korea.
    Our shared goal is to raise international awareness, to 
extend hope for those languishing under the near 7-decade-long 
tyranny of the Kim Dynasty. We wonder how long must this 
suffering go on.
    What will it take for the international community finally 
to say no more to the North Korean regime? Why can't there be a 
red line for human rights as there is for weapons of mass 
destruction? In a normal state, national security is pursued to 
ensure human security.
    In North Korea, however, national security ensures only 
regime security. The state takes no responsibility to protect 
its own people. It is no wonder why North Koreans en masse 
resort to taking refuge across the border.
    Why? Because there is no hope in a country ruled by 
political prisons, torture, hunger, and public execution, 
completely void of the fundamental rights to an adequate 
standard of living, not to mention life. The question remains 
how to get at the main sole source of all problems--the 
Pyongyang regime itself.
    In March this year, the Commission of Inquiry on North 
Korea unveiled its final report at the UNHRC. The report 
represents a significant milestone in how the world views and 
deals with the human rights crisis in North Korea.
    The COI report characterizes North Korea as a totalitarian 
state that has committed serious human rights violations 
amounting to crimes against humanity. Since the release of the 
report, the international community has come together as never 
before on this issue.
    One outcome worth noting is the work of Human Liberty that 
actively seeks to create a coalition of partners and volunteers 
to sustain this momentum.
    Of particular significance is the commissioning of Hogan 
Lovells, an international law firm based in London, to conduct 
an independent evaluation of COI's work pro bono.
    I would ask, Mr. Chairman, that the full crimes against 
humanity report be made part of the record.
    Mr. Smith. Without objection, your request will be honored. 
Yes.
    Ambassador Lee. Thank you. I am here to make public for the 
very first time the commissioned work by Hogan Lovells, which 
unequivocally endorses the findings and recommendations of the 
COI. But Hogan Lovells goes a step further to charge that the 
North Korean regime may be guilty of the crime of genocide.
    How so? Because the North Korean regime has, with full 
intent, been involved in the extermination, at least in part, 
first, of the so-called hostile class; second, those who are 
adherents of religion, Christians in particular; and third, 
those who are not ethnically North Korean.
    With respect to the hostile class, North Korea has imposed 
what it calls the Songbun system--essentially, a caste system 
where the hostile class with suspect state loyalty is placed at 
the very bottom of the society.
    As such, a legitimate argument can be made that North Korea 
has effectively created a group with a separate cultural 
identity within the society and as such it constitutes a 
distinct ethnicity.
    On that basis, the extreme discrimination to which this 
class is subjected, especially the deprivation of food, 
constitutes a form of genocide. In this case, it will be 
genocide by attrition or starvation.
    Now, on religion, Christians are viewed by the North Korean 
regime as a political threat because the state does not allow 
any belief system other than its official state ideology called 
Juche, or self-reliance.
    Just recently, the regime arrested an American tourist by 
name of Jeffrey Fowle, who reportedly left his Bible in a hotel 
room. Last September, there were reports that 33 North Koreans 
associated with South Korean Baptist missionary Kim Jeung Uk 
were sentenced to death for helping to establish underground 
churches in North Korea.
    They were executed by firing squad on November 3rd of last 
year when coordinated public executions reportedly took place 
in seven cities across the country in front of thousands of 
spectators including children, who were forced to watch. If 
that is not genocide, I don't know what is.
    The third category that are victims of genocide in North 
Korea are the non-Koreans. To the regime, any interracial 
marriage corrupts the purity of the society.
    As a result, the government brutally enforces a policy of 
forced abortion and even infanticide against mixed-race 
children, especially those with Chinese fathers.
    The Human Liberty report contends that an argument for 
genocide could be made on the basis that these mixed-race 
children who are victims of infanticide will qualify as a 
protected group under international law on racial and ethnic 
grounds.
    Considering the strict and narrow defines of the term 
genocide, the COI report was hesitant in charging the North 
Korean regime of genocide, suggesting instead that perhaps the 
term political genocide might be more applicable.
    The Human Liberty report prepared by Hogan Lovells, 
however, finds enough evidences to conclude that in North Korea 
genocide is taking place.
    During his presentation of the COI report, Chairman Michael 
Kirby said, ``These are the ongoing crimes against humanity 
happening in the DPRK which our generation must tackle urgently 
and collectively. The rest of the world has ignored the 
evidence for too long. Now there is no excuse because now we 
know.''
    So the question remains, Mr. Chairman, now that we know 
what do we do? How can we provide the beacon of hope for those 
North Koreans desperately yearning for freedom?
    To bring about a real change, it takes courage and the 
political will to confront the Pyongyang regime. What is 
required is worldwide mobilization.
    Ending the human rights abuses in North Korea will require 
a global campaign reminiscent of the international anti-
apartheid movement. U.S. House subcommittee hearings such as 
today's can only boost such a global campaign.
    It matters, and I am deeply grateful, and that is why I 
flew 12,000 kilometers today just to give this briefing, 
however short it may be. It is my way of thanking you and also 
letting you know that we are in this together.
    Thank you and God bless, and with that, Mr. Chairman and 
subcommittee, I will be pleased to answer any questions that 
you might have.
    [The prepared statement of Ambassador Lee follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ambassador Lee, thank you so very much for your 
extraordinary statement, your call for a global mobilization. 
You are absolutely right. I mean, this committee would concur 
with you. If this isn't genocide, what is?
    You know, whole or in part this is almost whole, because of 
the numbers of people who are systematically exterminated. I 
regret that we have one vote on the floor of the House so we 
are going to have to take a very brief recess and then we will 
come back and I know we all have a number of questions that we 
would like.
    But thank you again for making your way here from the 
Republic of Korea, flying all night, and but above all thank 
you for your commitment to the people who are suffering 
unbearable and unspeakable agony in North Korea. We will stand 
in brief recess.
    [Recess.]
    Mr. Smith. We will resume and Ambassador Lee, thank you 
again for your testimony. Just a few opening questions, if I 
could.
    First of all, on a note that is very near and dear to my 
heart I want to thank you for the work that you have done in 
your country on combating human trafficking.
    You know, as the author of the Trafficking Victims 
Protection Act, and I have worked with many of your lawmakers 
and have been to Seoul on trafficking missions, your laws are 
extraordinarily effective and, frankly, I think we are working 
side by side, not only there and here, but also around the 
world, to combat that modern-day slavery. So thank you for that 
leadership because it is very real.
    Now, on the issue of North Korea, I wonder if you could 
just answer a couple of questions. You know, you have called 
for a mobilization. I wonder if you can suggest to us what you 
think might be the best leverage.
    I know the U.N. General Assembly frequently takes up the 
case as does the Human Rights Council. I don't think that 
United Nations Genocide Convention's panel of experts has done 
it.
    It seems to me, as you pointed out, this is genocide. That 
would be a very appropriate place to at least take this up 
whether or not they are signatories or not but certainly the 
Human Rights Council needs to do something more than what it 
does, which is like an obligatory denunciation and it doesn't 
seem to go further than that.
    Everyone says okay, North Korea is bad, doing horrible 
things to its people, slaughtering. But I think your idea of a 
mobilization where more people, parliamentarians, congresses, 
the European Union, everyone starts really focusing.
    It has been frustrating for me and members of our panel 
that even in the Six-Party Talks human rights always get thrown 
to the back, if they are there at all, and it seems to me, and 
I have said this so many times, there needs to be integration 
of the human rights issue with the nuclear issue so that every 
time one is spoken about the other is raised equally because if 
you can't treat your own people with dignity and respect how 
can we trust and verify, particularly since on-site inspections 
are very difficult to accomplish in a nuclear agreement.
    Human rights are integral to everything, in my opinion, so 
your point about the mobilization, the red line, thank you for 
that, that is a very important statement that you made.
    Let me just ask you as well just to explain maybe for all 
of us about Juche. I read a book on Juche years ago and it was 
written by a Christian who said you Westerners really don't 
understand that whole principle and how it is integrated with 
this morphed communist ideology of the Kims.
    Could you maybe elaborate for us more on the genocide, what 
leverage we might have and what haven't we done, what else can 
be done. I think integration into the Six-Party Talks when they 
do occur ought to be a part of this. But Juche, if you could 
also speak to that as well.
    Ambassador Lee. Well, thank you for those questions, Mr. 
Chairman. I really think the COI report really opened up a new 
chapter in dealing with the North Korean human rights crisis 
situation. Maybe 3 or 4 years ago we would not have imagined 
putting in a single sentence Kim Jong Il, well, now, of course, 
his son, Kim Jong Un, the leader of North Korea, the 
International Criminal Court, or prosecution.
    I mean, and yet we are liberally and more often than not, 
talking about these things. So that is a huge leap forward, I 
believe. Of course, with the prosecutory mechanisms at the 
U.N., it is not going to happen overnight.
    It is a long drawn-out process. It is complicated. It is 
costly. I understand that. But just the fact that we are now 
talking about these things is a very positive development in 
dealing with North Korean human rights issues.
    Now, with regards to the genocide that you are asking 
about, of course, Chairman Kirby in the COI report, as I 
mentioned in my briefing, felt that, well, crimes against 
humanity is sufficient for their mandated purpose.
    There is probably evidence for political genocide but as 
you know genocide in international law has a very narrow scope, 
definition that you just have to fit things into.
    But as I was explaining, Hogan Lovells, a major law firm in 
London, these are lawyers and they have given it a very careful 
study and felt that there is enough evidence to warrant 
genocide.
    Now, that is crimes against humanity plus genocide. These 
are the two worst possible crimes in international law that 
there can be.
    So I think it is significant that we start to delve into 
this issue of genocide as well, on top of crimes against 
humanity, because we are just only beginning, and when I speak 
of an international campaign and movement it is about the 
international public opinion. In order for there to be 
international public opinion there has to be a much more 
increased awareness of what is going on so that the United 
Nations, particularly the Security Council, understands that 
there is this demand in the international public opinion that 
something needs to be done in North Korea. Let there be 
pressure on China and Russia. Let them think twice before they 
veto anything down.
    Mr. Smith. Is it a referral to the ICC that you contemplate 
as well or have you thought about maybe a specialized court 
like we had for Sierra Leone, Rwanda and the court in 
Yugoslavia?
    Ambassador Lee. Well, I mean, yes. I mean, these are all 
things that is, of course, recommended by the COI, by Justice 
Kirby and his team, that it should be referred because, of 
course, as you know, North Korea is not a party to the Rome 
Statute.
    It should be the Security Council that is making the 
referral. If not, the ad hoc tribunal as we know of the former 
Yugoslavia. It could be a joint tribunal, as in the case of 
Cambodia.
    But that is probably highly unlikely because the North 
Korean regime will not agree to such a thing. But, you know, as 
I said, it is going to be difficult journey but we are now 
talking about it. Let us increase the awareness.
    Let us increase the education of the young people so that 
more people go to SMS, Twitter and talk about these issues, 
maybe even in China.
    I think there are a growing number of netizens in China who 
are saying what is our government doing with this rogue state? 
Why are we doing this at the embarrassment of our people? Why 
are we being patron to this country that is an embarrassment to 
the world?
    So I think the international awareness for education, 
publicity is very, very important. So that is what I am 
basically talking about when I am saying that we should 
increase the campaign and mobilize the international campaign.
    Juche is the is about, well, literally self-reliance. They 
don't need anyone; they are self-sufficient, that this is a 
paradise that they have created. Far from it, of course. North 
Korea basically has two tools for regime survival and make no 
mistake, their only interest is regime survival.
    To deal with the outside world, weapons of mass 
destruction, nuclear weapons. They need to hold on to this and 
make it because with the nuclear weapons basically they are 
saying nobody touch us and we can do whatever we want and we 
are not going to have the United States or, you know, United 
Kingdom or whoever, South Korea or even the United Nations, 
telling us what to do or what not to do. Internally, it is the 
human rights violations.
    That is their tool to subdue any sort of anti-government 
thoughts or any movement to challenge the regime. So these are 
two most useful tools for the regime: Nuclear weapons and human 
rights violations.
    One for external, one for internal, and it is not going to 
change and therefore the pressure has to be very, very firm. We 
can't just pat them on the back and hope that things will 
change. It will never change.
    It hasn't changed for nearly seven decades and therefore 
this sort of hearing and while we talk about putting it into 
action is so important and in Korea, I might just add, the fact 
that the U.N.'s field office structure will be established in 
Korea is another very significant development in my country's 
dealings with the North Korean human rights issue.
    Mr. Smith. Ms. Bass.
    Ms. Bass. Well, first of all, let me thank you again for 
traveling all the way from Korea to provide your testimony 
today. I wanted to understand because I am aware of the man 
that is in prison now because he left a Bible in his hotel room 
and I just wanted to know if you could talk to me a little bit 
about tourism. I don't quite understand tourism in North Korea. 
Who goes?
    What do they do when they are there? I mean, what kind of 
tourism is there? Because you hear about it. I mean, I think 
the last person that was in prison had been there. Wasn't he 
getting ready to leave and they pulled him off a bus or 
something?
    Ambassador Lee. Yes. Yes.
    Ms. Bass. That was the one with the Bible. So who is going 
and what are they doing there?
    Ambassador Lee. I don't think there are a whole lot of 
tourists. I don't have the statistics but the most active 
tourist activity was the tourism of Kun-Dong Mountain, which 
was part of South Korea's effort to enhance inter-Korean 
relations hoping that things like that, Kun-Dong Mountain 
tourism as well as building the Kaesong Industrial Park would 
somehow----
    Ms. Bass. Right. That is right on the border, right?
    Ambassador Lee. That is right. But, of course, you know 
that one of the South Korean tourists, a woman in her 50s, was 
taking a stroll early in the morning and she was shot down----
    Ms. Bass. Right.
    Ambassador Lee [continuing]. Because apparently they are 
claiming that she actually crossed beyond the beachfront where 
she wasn't supposed to be. I mean, this is a tourist and 
thereafter it shut down. So----
    Ms. Bass. Okay.
    Ambassador Lee [continuing]. I mean, if you are asking a 
question as to, you know, who goes there I wouldn't, that is 
for sure.
    Ms. Bass. No, I mean, but, you know, you hear about that 
and that is when you hear about these folks being stopped. I 
have been there to the--right to the border, you know, to the 
DMZ and so that was a few years ago, maybe 3 years ago, and I 
know it was shut down then. Are you saying that it still hasn't 
been opened up?
    Ambassador Lee. No.
    Ms. Bass. The industrial area has not been opened up?
    Ambassador Lee. No. No. Kaesong Industrial Park, of course, 
continues but Kun-Dong Mountain tourism has not reopened.
    Ms. Bass. I see. I see. And then the ideology that you 
described I just want to make sure that I--the self-reliance. I 
don't know how it is said in Korean. Could you elaborate a 
little more on that?
    I understand the basic premise. It is, you know, the Korean 
people are supposed to be independent and not rely on anybody 
else, how the regime survives when folks are starving and are 
obviously not self-reliant and then--so I wanted to know if you 
could expand a little bit more on that ideology and how it 
plays out.
    And then also are there any internal underground struggles 
that are happening? You hear of people escaping but I don't 
know if there is any underground movements that are happening 
within North Korea.
    Ambassador Lee. Yes. I mean, you know, it is the most 
closed society in the world so information, intelligence, is 
very hard to come by.
    We do time to time hear about explosions where the Kim 
family train might have passed through. But I think the 
frequency is very, very small and North Korea is one of the 
highly monitored societies.
    Even those North Koreans--I mean, you go out abroad, you go 
to New York, the U.N., or other parts where North Korean 
diplomats are that you will able to meet or restaurants that 
they run, they are never alone.
    They are always in twosomes or threesomes because everyone 
is watching over his or her shoulders and therefore even within 
North Korea the monitoring mechanism is so severe and intense 
that it is probably very, very difficult to anticipate the kind 
of Jasmine Revolution that we have seen in other parts of the 
world.
    But nothing is impossible. I am sure that deep inside the 
people of North Korea have this desire and that is why, you 
know, what I am saying is let us find ways. Let us find ways to 
somehow help these people to expand on their desire whether it 
is by sending USBs. I don't know----
    Ms. Bass. US what?
    Ambassador Lee. USBs about the outside world--the 
information. Chairman Kirby was recently in Korea to visit and 
he was asking the Korean Government people about how to get the 
translated version of the COI report so that North Koreans can 
read it, how we get it to North Korea.
    So sending information to North Korea I think will be a 
very, very important task going forward so that people know 
that more people understand what their situation is in light of 
the outside world.
    Ms. Bass. Yes. It is just hard to see how the regime falls 
considering it has been seven decades. You know what I mean? 
Short of a massive invasion somewhere because they are blocked 
off from the rest of the world.
    We know starvation is going on but yet they continue. What 
is your guesstimate as to the number of people that are in 
labor camps?
    Ambassador Lee. I think, you know, anywhere between 120,000 
to as many as 200,000. But, again, you know, when we are 
talking about these political prison camps it is not like 
prisons where you might have 200 or 500 people.
    I am sure you will get a much better testimony from Mr. 
Shin. But we are talking about, like, 50,000 people--people who 
are born into these prison camps and dying. These are towns. It 
is a different world that they have created--a world of hell.
    Now, and it is important that you mentioned this point 
about when it falls. It has been there despite all the talks 
about economic difficulties that it has been--the regime has 
survived for seven decades.
    Well, I believe that in particular China's role is very, 
very important. North Korea, despite its resilience in a bad 
way, is very much dependent on China in terms of energy, in 
terms of food. So if, I believe, China made the decision to, 
for example, really cut off all financial transactions, if it 
really used its energy and food leverage on North Korea, it 
will change.
    I am not saying that it will collapse. It could. But 
certainly it will change because the regime cannot survive. So 
I think that is where the focus ought to be.
    Mr. Smith. Thank you very much, Ms. Bass. Mr. Marino.
    Mr. Marino. Thank you, Chairman. Good afternoon, 
Ambassador.
    Ambassador Lee. Good afternoon.
    Mr. Marino. I want to talk to you for a moment about the 
United States' role in the world and particularly in the United 
Nations.
    Everybody comes to the--when there is an issue, even if 
they are not favorable to the United States, they call on the 
United States for assistance whether it is natural disasters or 
manmade, and that is what we do in the United States. We help 
people around the world and we try to resolve problems.
    But I am not seeing very much or hearing very much out of 
the United Nations, particularly the Secretary-General who, by 
the way, is Korean, and he assumed the Secretary-General 
position I think it was about 2007. He was reelected in 2011 
until 2016.
    He was Minister of Foreign Affairs and Trade for and other 
high-ranking positions for almost 37 years. His wife, Madam 
Yoo, is devoted to women's and children's health issues, 
autism, violence against women, et cetera.
    But yet when I hear the Secretary-General, Ban Ki Moon, 
speak, the last issue I heard concerning Korea was in April 
2013 and he was on a CNN interview and he had a couple of 
sentences where he scolded the leader of North Korea.
    In August 2013, he had a press conference and most of it 
was on Syria, nothing about North Korea, and if you look on his 
bio and his major initiatives and any other statements that he 
makes pursuant to speaking to the media he starts out with 
things like climate change. They are calling it climate change 
now.
    It used to be global warming and then since we had a couple 
of harsh winters they figured that global warming thing isn't 
working so now we will go to climate change.
    Next week who knows what it will be. Economic upheaval, 
food, energy, water and strengthening the U.N. Give me your 
assessment of what the Secretary-General is doing or, more 
importantly, what he is not doing concerning North Korea.
    Ambassador Lee. Well, that is a tough question.
    Mr. Marino. You are darn right it is.
    Ambassador Lee. Yes. It really is a tough question and I 
think he really has to walk a fine line because if you--if he 
in fact focus too much on the Korean Peninsula issues he may 
get criticism from the outside world that he is putting the 
national identity above and beyond his sort of U.N. status.
    So there is sort of a trap, if you will. Now, having said 
that, on the other side of the spectrum, as you have pointed 
out, maybe he is not doing enough.
    I cannot pass judgment on that issue but he does have to--
it is a world government, in a way. I mean, he does have to 
handle so many different issues so--yes.
    Mr. Marino. I understand and I appreciate your position. 
But I can pass judgment, given the fact that United States is 
the largest financial contributor to the U.N.
    The Secretary-General rarely comes to an agreement with the 
United States and I don't think it shows favoritism. When 
people ask me why did I make a particular vote here in Congress 
that was a hard vote, that is why I came here, to make the hard 
votes and to try and improve the quality of life for all 
Americans.
    I think the Secretary-General falls in that category as 
well and I can't think of anyplace else on Earth other than in 
one or two countries on the continent of Africa where such 
travesties are taking place and I think that he should be 
speaking out more about this.
    I think he should put together a task force. They are 
always putting together some kind of a committee or task force 
at the U.N.
    I don't know what they do but they have task forces. We 
never hear from them once the committee is put together, and I 
think it is due time that South Korea and other countries put 
the pressure on the Secretary-General to address what it taking 
place in North Korea.
    I do it all the time. My chairman does it all the time. 
Many members of the House and the Senate do it all the time.
    But we don't seem to get the support and the cooperation 
from the U.N. and I think that is a place where we can have a 
tremendous impact on what is taking place in North Korea.
    China is an entirely different issue. They are funding 
North Korea. There is no question about that. Without the funds 
coming from China, North Korea would collapse.
    I think that is a political move that the Chinese decided 
to take because they know that North Korea is a thorn not only 
in the side of the United States but around the world and to 
keep controversy going.
    But it is about time that more world leaders step up to the 
plate with the United States and I think the U.N. should lead 
that concerning North Korea as well, particularly given the 
fact that the Secretary-General is Korean.
    Ambassador Lee. I will take that as a comment, not a 
question.
    Mr. Marino. I yield back.
    Mr. Smith. Thank you very much. I yield to the chairman of 
the Subcommittee on the Constitution and Civil Justice on the 
Judiciary Committee but also the chairman of the International 
Religious Freedom Caucus here in the House, Trent Franks from 
Arizona.
    Mr. Franks. Well, thank you, Mr. Chairman, and thank you, 
Mr. Ambassador, for being here with us. You know those of us 
that have a deep concern about religious freedom often try to, 
I think, accurately build a construct of where there is no 
religious freedom then totalitarianism and a lot of human 
rights violations soon follow.
    Where you have religious freedom it seems like there is 
much greater embrace of human rights in general as well. I 
guess the first thing that I would ask you if you would just 
comment on that general concept--do you find that to be a 
general pattern that where you have religious freedom you often 
times also have other human rights protections?
    Ambassador Lee. I am not quite sure if I understand your 
question. In North Korea?
    Mr. Franks. In North Korea or anywhere else in the world. I 
mean, you don't have religious freedom in North Korea, do you?
    Ambassador Lee. No, of course not.
    Mr. Franks. But and you don't have human rights. North 
Korea fits the matrix I am talking about. But generally is it 
not your belief that where religious freedom is restricted then 
oftentimes other human rights abuses follow?
    Ambassador Lee. Absolutely. The causal linkage is quite 
manifest.
    Mr. Franks. Yes. I didn't mean to ask the obvious question 
but it always seems to be important to get that on the record 
because religious freedom seems to portend almost all other 
freedoms. It seems to be the cornerstone of freedom in general, 
certainly here in America and I think across the world.
    I serve on the Armed Services Committee as well and one of 
the great concerns that some of us on that committee have, of 
course, is North Korea's nuclear weapons capability and you 
are, in my judgment, correct that they find themselves almost 
impervious to diplomatic pressure because of this checkmate 
capability that they have.
    But we have sanctioned them for 50 years to starvation and 
they have tested three times and I think that calls into 
question the efficacy of sanctioning countries to reduce their 
nuclear weapons pursuit in the first place. That is another 
hearing.
    But do you believe that there is anything that you would 
suggest that we could do to somehow take this terrible 
capability they have out of their hands so that there wouldn't 
be this impossible effort to try to convince them to restore 
human rights and other fundamental freedoms?
    Ambassador Lee. The nuclear capability of North Korea is 
obviously a serious, serious challenge not only to the 
peninsula but Northeast Asian security environment and also to 
the nonproliferation regime.
    But the simple answer to your question really comes back 
down to China--the role of China. Yes, you are right. We do now 
have four U.N. Security Council resolutions with sanctions--
economic sanctions on North Korea--three for the nuclear tests 
and one for the long-range missile.
    I have no doubt that North Korea is probably, with its 
nuclear weapons and the delivery capability, is probably 
targeting some of your forward bases in Guam, maybe in Japan, 
and elsewhere.
    Mr. Franks. And they are moving toward missile capability 
to put in their range the entire United States so I think that 
for us to suggest that North Korea represents no national 
security threat to the United States is ludicrous, at least 
within the short term and I know that is not what you are 
suggesting.
    Ambassador Lee. Yes. Well, I don't know about the mainland 
but certainly, as I said, you know, your forward bases in the 
Asia Pacific anyways. But yes, for the past 50 years, as you 
were saying, North Korea, irrespective of the sanctions, it has 
continued with the development.
    But one has to ask the question of if those sanctions 
really been effective, meaning have we had everyone on board in 
effectively applying those sanctions and the answer, of course, 
is no.
    And even my government has, I think, to be taking blame for 
some of that as well because as we tried to improve the inter-
Korean relations there is cash going into North Korea at some 
junctures.
    China even today, despite its seeming commitment to the new 
sanctions, I believe the economic activities continue to go on. 
So if we really, as I said, have the political will to make a 
change I cannot say for sure that we can actually convince 
North Korea to give up its nuclear.
    That is going to be really tough. But in order to at least 
get to that stage where they might contemplate it seriously, I 
think one has to, particularly your government, has to find a 
way to deal with the Beijing government as to what will it take 
for Beijing to really not just going to the extent of oh, we 
will hold these Six-Party Talks and resume the Six-Party Talks 
and try to resolve this peacefully.
    Well, what have we had over the years? The first nuclear 
test, second, third. This year it seemed in the spring that 
North Korea as poised for the fourth nuclear test.
    I think we will have that. I have no doubt. It is just a 
question of timing. So unless China comes on board and somebody 
convinces China to do so, it is going to be a really, really 
difficult task. So I think the focus has to be China.
    Mr. Franks. And, you know, given the fact that China 
probably is not broken-hearted over the fact that North Korea 
represents sort of a stumbling block to the United States and 
to the world, it is probably unlikely that they are going to 
have some major epiphany in that regard.
    If you had one other factor besides China that the United 
States should pursue, and incidentally I am convinced that, you 
know, when we were in a position to have prevented North Korea 
from gaining nuclear weapons capabilities, we paid the ransom 
but we didn't secure the hostage under the Clinton years, and 
consequently now that they have the nuclear weapons 
capabilities very, very difficult to get them to give it up.
    And I think that we should consider that in the instance of 
Iran because we may have another rogue state in the world. 
Well, we do now, but another nuclear-armed rogue state which 
really puts a different pall on it completely.
    But if we had one other factor besides China, and I agree 
with you completely that China is the key, but I am not sure 
that we should hold our breath until they change their mind.
    If we had one other area of pursuit which do you think 
would be our most efficacious line of either diplomacy or 
pressure to bring North Korea in line with human rights 
considerations and maybe someday hopefully see them disinvited 
from the nuclear arms community?
    Ambassador Lee. Well, I remember back in the 1980s the 
anti-apartheid campaigns very strong throughout the world on 
campuses of your country. On U.S. American college campuses 
there were movements to boycott some of the businesses, 
companies like, I believe, like Nestle not to buy their 
products--those companies that is doing business or have 
invested in South Africa. Now, of course, North Korea is no 
South Africa.
    There is not a whole lot of businesses that they have 
invested in. But still there are, I believe, some commercial 
entities, probably Chinese and elsewhere, who do business with 
North Korea could be targeted, I believe.
    So that is not a, you know, government to government thing 
but I am talking about commercial activities--banking 
activities, financial areas. I think there has to be greater 
focus on these activities because, I mean, there is no other 
way. We have tried engagement.
    I mean, I am not here trying to be overly firm in dealing 
with North Korea. If we hadn't tried before to engage North 
Korea and to provide goodwill and provide all sorts of 
financial and economic packages we have done that. We called 
that the Sunshine Policy back in the '90s.
    It hasn't worked. Despite all that, despite billions of 
dollars going into North Korea, they put on the front as if 
they are going to maybe give up nuclear weapons.
    Mr. Franks. Yes.
    Ambassador Lee. They go through the motion of Six-Party 
Talks and all that. But behind the back, of course, what they 
are doing is building it up. So it doesn't work. So 
unfortunately this is the only way to really, really focus on 
where it hurts the most on North Korea and we have to find 
that.
    Mr. Franks. Well, I think it says a great deal about South 
Korea the way you have had a sense of stability in the region, 
and I have been to South Korea and the DMZ and observed your 
growing capacity and it is really--it has been an honor to see 
you here and I echo your thoughts just here finally that, you 
know, whenever we appease despotism it almost always backfires.
    I mean, what the little verse says--what is it, no one 
gains when freedom fails, the best of men rot in filthy jails 
and those who cried ``Appease, appease'' are shot by those they 
tried to please. It always seems to work out that way, doesn't 
it?
    So thank you, Mr. Ambassador, and thank you, Mr. Chairman.
    Mr. Smith. Let me just ask you a few final questions and 
then yield to my friend, Mr. Marino, for some additional 
questions. Has it gotten worse since Kim Jong Il's death and 
Kim Jong Un has come in? Has it deteriorated in North Korea?
    Secondly, as Andrew Natsios points out in his testimony, 
April 17th was the first discussion of the DPRK's human rights 
issues among Security Council members, informal as it was the 
first.
    Is that a result of the COI? Is it a reaction to it and do 
you see that as, you know, the beginning of an embrace there 
and, again, the hope would be that some referral would be made 
to the ICC.
    Ambassador Lee. April 17? Which one are we talking about?
    Mr. Smith. Yes. That would be the Security Council. When 
Security Council members spoke----
    Ambassador Lee. Yes.
    Mr. Smith [continuing]. And discussed----
    Ambassador Lee. The Arria?
    Mr. Smith. Yes, the Arria. Third would be on refugees. I 
have met with Antonio Gutierrez many times on the rapprochement 
issue of forcing North Koreans back from China, and as a 
signatory to the refugee convention China has serious 
obligations that they are breaching with impunity by forcibly 
sending people back.
    As you know, if a woman is pregnant and I--we heard from a 
German physician here--I held a hearing a number of years ago--
who was honored first by Pyongyang and then went and came out 
and told the world what was going on. He told stories and 
brought pictures.
    They were--they were representations of what they do to 
women in prisons including putting boards on their abdomen, on 
pregnant women, and guards standing, jumping up and down to 
kill their unborn children, another hideous form of forced 
abortion and, of course, it very often kills the woman as 
well--a horrible torture.
    And yet he said these kinds of things go on as well as 
other abject cruelty that the world needs to know about. Your 
thoughts on the forced repatriation issue? Why doesn't China, 
why doesn't UNHCR?
    There are actionable mechanisms that they have that they 
could employ to try to ensure that they live up to their 
obligations, they being the People's Republic of China.
    On the issue of South Korean media, on one trip to Seoul I 
was told by a number of parliamentarians that the South Korean 
media does not focus the way we would have thought they would 
on the atrocities committed by Pyongyang.
    Is that changing? Does the COI change that at all in terms 
of a new and fresh look, that a lot of the young people don't 
even have a clue in the Republic of Korea about what is going 
on north?
    And let me also just ask you about freedom broadcasting. 
Free North Korea Radio, VOA Korean Service, Radio Free Asia are 
broadcasting. Is it getting through? Is it heavily jammed or 
jammed at all? If you might speak to that and that would be it.
    Ambassador Lee. Those are a lot of questions to----
    Mr. Smith. Thank you.
    Ambassador Lee. Yes. The April 17th Arria meeting I think 
is very significant, and Justice Kirby was there, and of the 15 
Security Council members, 13 were present.
    Of course, the two obvious absences were from Russia and 
China, and of the 13, nine voted favorably to the Security 
Council referral to the ICC. That doesn't mean the remaining 
four were against.
    They just didn't vote in favor. So I think the mood is 
changing, and this is something that Mr. Marino was earlier 
talking about, the role of the U.N., the U.N. is very slow to 
move but at the same time it is moving and after all COI is a 
U.N. endeavor and finding.
    So slowly but surely it is moving toward a direction that 
we would like. The forced repatriation is a very, very serious 
issue and this is something that, again, COI points out.
    I think it is very bold that the COI--and I was there in 
Geneva on March 17th when Chairman Kirby was addressing the 
U.N. Human Rights Council and the Chinese delegation was just 
there and he made it very clear.
    I mean, at the U.N. it seems that, you know, that China is 
of such a stature--has such a stature--enjoys such a stature 
that they are very diplomatic, I believe overly diplomatic. And 
yet, Justice Kirby was very direct in pointing to the Chinese 
that, as you know, that the--repatriating North Korean 
defectors back to North Korea, knowing fully well that they 
will be subjected to some kind of penalty--political prison 
camp, torture, maybe even execution--is aiding and abetting 
crimes against humanity and that is a very serious charge.
    You were earlier mentioning human trafficking and as you 
know a significant number of the North Korean defectors are 
women and children, and one of the women that we have 
interviewed is of the opinion that maybe as many as eight out 
of 10 are subjected to--I mean, they are vulnerable--they are 
subjected to rape and all sorts of unthinkable doings--damages 
to them.
    So why is China doing that? Probably it feels that if it 
were more lenient on this matter that there will be a mass 
exodus that they could not possibly handle, number one.
    Maybe it will lead to a situation like East Germany just 
before the unification, that this will really be a politically 
damaging thing for the North Korean regime.
    What that means--what that suggests is that for some reason 
Beijing still holds firm to the political calculus that 
propping up North Korea is still more advantageous to China 
than not. So that balance has to tip at some point and I 
believe that it will, but it hasn't as of yet.
    So unfortunately China may be still captured in this, you 
know, Cold War calculus of how North Korea may still play this 
buffer role--buffer zone and that it serves a useful purpose 
and that is why it is turning a blind eye to this issue of 
human rights violations.
    But I think increasingly with time this is going to be a 
huge burden on China because China is a G2. It wants to play, 
you know, a global leadership role.
    It wants to compete with the United States. How can you 
have that moral leadership in the global context being a patron 
to a country that commits crimes against humanity, genocide? It 
cannot sustain. So I think we are getting to the point where 
balance might tip.
    So I think we have to keep pushing so that that balance 
could be tipped. I don't know what else. Freedom broadcasts--
yes, there are jams. There are restrictions on. The Far East--
it is a Christian broadcast--Far East Broadcasting does get 
into North Korea but I think that is another area that we 
really have to look into to open more.
    Mr. Smith. If I could just add one thing. If you would 
consider this in your calculus. The Chinese Government is 
missing as many as 100 million girls--women because of their 
forced abortion policy, the one-child-per-couple policy and the 
emphasis on sex-selection abortion.
    I have been arguing with our own TIP office for 10 years 
and they finally did it last year, and matter of fact they did 
it in their narrative in the Trafficking in Persons Report 
about China, that the magnet as to why so many bride sellers 
``traffickers''--sex traffickers are bringing women across the 
border or when they make it across the border on their own 
volition seeking relative freedom, relative with a capital R, 
they are trafficked because of the dearth of girls.
    They simply have been exterminated one by one so the one-
child-per-couple policy is the largest magnet ever on the face 
of the earth and that goes equally for those areas that are 
adjacent to North Korea. And I have had three hearings where we 
have had women who have been trafficked who told that story.
    These were the lucky ones, obviously, who made their way to 
safety and out of China as well and, you know, they were sold 
as brides, each and every one of them that testified. I think 
your other calculus is right on point as well. But I think that 
needs to be in there as well. Mr. Marino.
    Mr. Marino. I thank the chairman.
    Ambassador, the U.S.' relationship with the Republic of 
Korea is very important to us. You are a very true ally, a very 
good friend and I can only see that relationship between the 
United States and the Republic of Korea becoming even more 
strong and we look forward to that.
    But what do you think that together the United States and 
the Republic of Korea can do concerning China? You know, China 
has quite a few human rights violations. Just look when they 
build the Three Gorges Dam they displaced at least 1\1/2\ 
million people.
    It is probably--you know, it is about 10 percent of their 
population. The environmental effects, the ecological impacts 
of the dam that the built has to be tested yet, it is not 
trending well.
    As my chairman spoke about, what is taking place with 
unborn females. There is a great deal here concerning human 
rights and the environment but what do we do together, the U.S. 
and the Republic of Korea, to have a positive impact on China 
concerning North Korea?
    Ambassador Lee. Well, first of all, I believe the ROK-U.S. 
relations today are very healthy. Your President visited, very 
recently, Korea. Although it was a very short visit, it was a 
very successful visit.
    The press conference that President Obama and President 
Park Geun Hye had together was extremely constructive and 
visionary. They for the first time actually in the press 
conference talked about human rights in North Korea, which is a 
positive.
    They also decided to renegotiate the timetable for the 
transfer of operational control, thereby delaying the abolition 
of the Combined Forces Command which is also a very positive 
development because why would you want to, you know, do away 
with a system that has been very effective as a deterrent at a 
time of maximum threat, which is now. So that is a big 
developments.
    They have also talked about the possibility of somehow 
making the missile defense system interoperable. So a lot of 
things were discussed which were very, very positive so those 
are good developments.
    Now, with China I don't think that South Korea and the 
United States have any interest in somehow ganging up on China. 
China is a very important partner for both the United States 
and South Korea.
    Our trade with China is larger than our trade with Japan 
and the United States put together. We have huge foreign direct 
investments in China. It is a very important partner.
    So I think what we can do together is somehow continue to 
try to convince Beijing that, and this is something that 
President Park Guen Hye has very often referred to the 
importance of reunification. She talks about the reunification 
bonanza.
    She talks about reunification in Dresden. So reunification 
is very, very important and I think it falls on South Korea in 
particular. But if we can do that with the United States so 
much the better.
    Trying to convince China that reunification--peaceful and 
free reunification is beneficial to China--that with 
reunification China's long-held hope for the successful 
economic development of the northeast region for three 
provinces is possible with the reunification of Korea and that, 
you know, it really--China stands to gain by a reunified Korea 
under South Korea's leadership, economically, and if that is 
something that we can convince China together with--between 
these two countries I think that is where our focus ought to 
lie.
    Mr. Marino. I visited the Republic of Korea about a year 
ago for several days. Had a wonderful time. The Korean people 
treated us like royalty.
    But I think also together with what you said concerning 
what we need to do with China I think the Republic of Korea and 
the United States need to put some type of pressure on the 
United Nations to become more vocal and more involved in this. 
So thank you, sir.
    Mr. Smith. Thank you so much. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and thank you for 
coming to testify. I think, you know, I am going to be brief 
with my questions. My apologies for just getting in. We had 
another hearing on the Taliban release and so I just came from 
there.
    But from a human rights perspective, how do we--as Members 
of Congress how to we best at times put forth the carrot to 
address those issues and at times maybe the stick on addressing 
those issues? And hearings like this--do they really matter?
    I guess the question is the chairman has been very 
deliberate and tenacious in his willingness to address this 
issue. I have supported him wholeheartedly, continue to do so, 
and yet there are times where we wonder, you know, are people 
listening--are we really making the efforts or where are we 
missing the boat and should we use more carrot or more stick?
    And I don't know if that makes sense or not but I would 
like you to comment on that.
    Ambassador Lee. Well, earlier I have made a comment on the 
carrot part and how we have actually tried a very large carrot 
in dealing with North Korea. Unfortunately, it has not worked.
    All it has led to was more nuclear tests and continuing 
violations of human rights, and things stand at that.
    Mr. Meadows. And why do you think--and why do you think 
that is? I mean, is it that they don't know how good the carrot 
tastes or they just don't see? I mean, is it hard to get the 
hope or where they realize how wonderful the potential benefit 
could be, that there is a lack of believability? I mean, what 
is your perspective on that?
    Ambassador Lee. Well, under the normal case----
    Mr. Meadows. I don't think that is the case but I do----
    Ambassador Lee [continuing]. Under normal circumstances, 
under normal leadership what you suggest might apply but this 
is not a normal state.
    Mr. Meadows. Right.
    Ambassador Lee. This is not normal leadership. Their goal 
is not to see to the welfare of the people. Otherwise, it would 
not have lasted nearly seven decades as such.
    Mr. Meadows. Right.
    Ambassador Lee. Right. Their interest, their single sole 
purpose is national policies for regime survival and they have 
done that and they are happy with that and they are not going 
to change and they are going to use the two most effective 
tools, as I was mentioning earlier, to continue to sustain 
this. One, of course, is the nuclear weapons to deal with the 
outside world, your country in particular.
    Mr. Meadows. Right.
    Ambassador Lee. Two, internally, I mean, North Koreans are 
tough people, right, so for decades to suppress them as such 
they have to rely on a very, very harsh suppressive and 
oppressive policy and violation of human rights starts with 
that and it ends with that.
    So unfortunately, you know, what we think conventionally 
this is what is best for North Korea. I mean, wouldn't they 
want to really improve the society so that people won't starve 
to death and all that. Well, that is what we think. That is not 
the way of thinking of the North Korean regime.
    They are quite happy with the way things are as long as the 
regime is intact. In the mid-1990s as many as a staggering 2 
million to 3 million people died from starvation and they were 
okay with that as long as the regime survives.
    So that is why we have to take into account. They 
understand what is at stake in terms of carrots and sticks and 
we have tried, you know, billions of dollars of, you know, 
support and supply and assistance to North Korea from South 
Korea. Unfortunately, it hasn't worked.
    Mr. Meadows. So, Mr. Ambassador, would you--would you say 
then, I guess, as we start to look at this dynamic that their 
belief is that a more prosperous citizenship in North Korea is 
a real threat to their regime and if so why do they think that?
    Because generally if you look throughout all the other 
uprisings it is--it is the lack of funds or the lack of jobs 
that is creating the threat to regimes and yet what you are 
saying here is it is exactly the opposite. They want to keep it 
suppressed both human rights-wise, economically, et cetera, to 
keep the regime in place. And so do they see that prosperity 
would be a threat to their rule?
    Ambassador Lee. Well, theories on revolution and how 
revolutions occur suggest that it is not when people are in 
abject poverty that revolutions occur.
    Revolutions are more likely to be caused when people get a 
taste of better life and then they want more. That is when 
revolutions occur. I think North Korean regime understands that 
very well and therefore doesn't want the society to get to that 
level.
    So I think it is direct intentional policy to keep the 
people in abject poverty and despair because if they wanted to 
improve the situation they certainly can. We have South Korea.
    We have the whole world, international organizations, 
willing to help out, if only. But it is not bending because it 
doesn't want that world. That is what we are dealing with here.
    Mr. Meadows. All right. Thank you. Mr. Chairman, I yield 
back.
    Mr. Smith. Thank you very much. Ambassador Lee, thank you 
for your very, very keen insights. I would associate myself 
with the remarks of my distinguished colleagues and Mr. Marino 
has talked about Ban Ki Moon stepping up and doing more we 
would all hope that he will; that is a position of strategic 
leverage and power and I think he would be highly applauded and 
regarded for that because he knows the situation, as we all 
know, given, you know, his prior work in the Republic of Korea.
    So I would hope that that would be taken seriously by him. 
But thank you so much.
    Ambassador Lee. Thank you for the opportunity. Thank you.
    Mr. Smith. Your words very insightful for us----
    Ambassador Lee. Thank you.
    Mr. Smith [continuing]. And for those who will read this 
record and that will be many.
    The briefing now comes to an end I call pursuant to notice 
the hearing on North Korea human rights and crimes against 
humanity in North Korea, and we welcome to the witness table 
our three very distinguished witnesses beginning with 
Ambassador Andrew Natsios, who is the co-chair of the Committee 
for Human Rights in North Korea.
    He is also executive professor and director of the 
Scowcroft Institute of International Affairs at Texas A&M 
University. Ambassador Natsios was most recently a 
distinguished professor in the practice of diplomacy at 
Georgetown University and before that former Administrator of 
USAID.
    As USAID administrator from 2001 to 2006, Ambassador 
Natsios managed a huge portfolio of humanitarian and democracy 
assistance programs. He also oversaw reconstruction programs in 
Afghanistan, Iraq, and Sudan. He served as the U.S. Special 
Envoy to Sudan from 2006 to 2007.
    He is a veteran of the Gulf War, from 1993 to 1998, was 
vice president of World Vision U.S., the largest faith-based 
nongovernmental organization in the world. He is the author of 
three books including ``The Great North Korean Famine`` and he 
also was director of the Office of Disaster Assistance. So 
every hat imaginable of helping people, that is Ambassador 
Andrew Natsios.
    We will then hear from Mr. Shin Chang Hoon, who is a 
research fellow and director of the Center for Global 
Governance at the Asan Institute of Policy Studies. Previously 
he taught public international law, international space law, 
and the Law of the Sea at the School of Law and International 
Organizations and the graduate school of international studies 
at Seoul National University.
    His research focuses on international dispute settlement 
mechanisms, the Law of the Sea, international environmental 
law, humanitarian law and the study of WMD nonproliferation 
regimes.
    And then we will hear from Mr. Shin Dong Hyuk, who is a 
North Korean defector and human rights activist who is the only 
person known to have successfully escaped from a total control 
zone political prison camp in North Korea.
    He is agreed to be the only person who has been born into a 
North Korean political prison camp to escape from North Korea. 
He is the subject of a best selling biography published in 
2012, ``Escape from Camp 14: One Man's Remarkable Odyssey from 
North Korea to Freedom in the West.''
    He has given talks to audiences around the world about his 
life in Camp 14 and has been described as the world's single 
strongest voice on the atrocities inside North Korean camps.
    Ambassador Natsios, the floor is yours.

   STATEMENT OF THE HONORABLE ANDREW NATSIOS, CO-CHAIR, THE 
           COMMITTEE FOR HUMAN RIGHTS IN NORTH KOREA

    Ambassador Natsios. Thank you, Mr. Chairman, and thank you 
for inviting me. It is good to be back in the Congress. I have 
formal remarks which are much lengthier that I would like to 
submit for the record.
    Mr. Smith. Without objection, so ordered.
    Ambassador Natsios. I would also like to say, while I am 
co-chairman of the Committee on Human Rights in North Korea, we 
didn't take my 10-page testimony and get it approved by the 
board so I don't want you to take everything I say as the voted 
position of the committee.
    I usually say some egregious indiscretion in all of these 
hearings, Congressman, as you are aware of, over the years. So 
I don't want to blame the committee for that--I am not 
representing Texas A&M or the Bush School of Government where I 
teach.
    While the committee asked me to focus my remarks on U.S. 
Government policy on human rights in North Korea, I would like 
to begin with a description of the cause of those abuses.
    The fundamentally totalitarian nature of the North Korean 
state, its economy, and political culture is the reason that 
there is no protection for virtually any human right even at 
the most minimal level.
    North Korea has no rule of law, no independent court 
system, no civil society, no private institutionalized 
religion. It has no independent news media, no independent 
political parties other than the Workers Party--the Communist 
Party--no freedom of expression in any way, no choice of 
competing candidates on the ballot for any public or party 
office, and without these checks and balances we know that 
means there is no constraint on the power of the state to abuse 
their own citizens.
    The North Korean state--and I have been to more than 100 
countries in the world--I have seen--I was in the Rwandan 
genocide, I saw the atrocities in Bosnia, in Darfur unfold as I 
was Special Envoy.
    I have seen terrible things over the years. But the North 
Korean state remains the most oppressive, the most brutal and 
most severe violator institutionally of human rights in the 
world.
    While most observers and scholars understand the 
totalitarian nature of the North Korean state, detailed 
evidence of these abuses remain very limited in the past 
because of the insular nature of the country.
    That changed over the last decade and a half and now we 
have abundant evidence of those crimes. The cataloguing of this 
evidence has been made possible by the most cataclysmic event 
in North Korean history, which I wrote a book about, since the 
Korean War and that was the Great North Korean Famine between 
1993 and 1998 which I estimate killed 2.5 million people.
    And by the way, the third ranking member of the politburo 
estimated that actually it was 3.5 million when he defected to 
South Korea. The system of control which insulated the country 
from the outside world collapsed during the chaos of the famine 
and has opened up to researchers new sources of information 
about conditions inside the country.
    I myself travelled to the North Korean border to write my 
book and I interviewed dozens of refugees escaping North Korea. 
I did it under cover with a Buddhist NGO from South Korea that 
I am associated with.
    One of the most credible sources of details of this abuse 
is the Committee on Human Rights in North Korea, which I serve 
as co-chairman of with Roberta Cohen, which undertakes in-depth 
research conducted by recognized experts and publishes 
carefully documented reports on human rights in North Korea.
    The committee is a nonpartisan human rights research center 
which has produced 20 research reports since we were founded in 
October 2001. I might add the first institution I am aware of 
in the world that proposed that this issue be brought before 
the Security Council was our committee and I believe that the 
first institution advocating for the Commission of Inquiry was 
the Committee on Human Rights in North Korea.
    U.S. Government policy on North Korean human rights has 
evolved over the past two decades. The policy focus of the past 
three Presidential administrations has been to use diplomatic 
negotiations to prevent the North Korean Government from 
developing nuclear weapons and the means to deliver them.
    This policy has been an abject failure. It has been 
repeated several times. We have had three nuclear tests. The 
fourth one is being prepared now and they are developing 
missiles to deliver those weapons. All of this is about regime 
survival. Several people before us said that. That is 
absolutely correct.
    We can talk about precisely how their behavior is connected 
to this obsession with regime survival. I researched this for 
the book that I wrote and came up with some interesting 
conclusions.
    The willingness of the U.S. Government to raise the North 
Korean human rights issue has increased as the failure of U.S. 
policy in the nuclear issue has been more apparent even to its 
strongest advocates, and my view right now is the main reason 
that we are--the U.S. Government is pursuing this is because we 
don't have any nuclear negotiations.
    If we start doing that again you watch, the nuclear issue 
will overshadow the human rights issue very quickly. The 
nuclear talks have been effectively abandoned but the Chinese 
Government is attempting to revive them.
    Despite this reluctance to engage in the human rights 
issues, both the Obama and the Bush administrations have made 
public statements about human rights abuses in North Korea. 
Both President Bush on April 30, 2008, and President Obama in 
March 26, 2012, made very strong statements on the human rights 
issue in North Korea.
    The U.S. Government has consistently voted for every U.N. 
General Assembly resolution on human rights in North Korea 
since 2005. Without going into depth of what the resolutions 
say, they are moderately worded but as the Commission of 
Inquiry moved through the process, more and more countries are 
becoming more aggressive in the language they use.
    I have to say when I did the research on the North Korean 
famine for my book, I found one report on human rights done by 
the Minnesota Lawyers International Human Rights Committee. I 
could not find any copies of the report.
    Finally, I found one in the Widener Library at Harvard and 
basically what happened is the committee went around--they deny 
doing this but the committee went around that wrote the report 
and they destroyed all the copies because they were convinced 
by some pro-North Korean expatriates that the report was 
engineered--all the information in the report--by South Korean 
intelligence.
    It was all fictional. It was complete nonsense. If you read 
the report it goes back. It is 20 years old. Everything in that 
report has now been proven. It is in the Commission of Inquiry 
but they successfully suppressed that report.
    Even the people that wrote it became convinced or at least 
had enough questions that they suppressed the report 20 years 
ago. How long--how far they have gone attempting to stop this 
from getting out and now it is out and the North Koreans can't 
stop it.
    I would also add that Ambassador King has endorsed the U.N. 
Commission of Inquiry in a statement March 17, 2014. He 
testified before the or spoke before the Human Rights Council 
on the matter.
    The Commission of Inquiry accused the North Korean 
Government of crimes against humanity, a very strong term, 
which has not been used in any of the U.S. Government documents 
to this date. In fact, the Commission of Inquiry report, from 
my experience with the U.N. over the last 25 years is a 
historic document and it uses stark uncompromising and 
undiplomatic language unlike most other U.N. documents.
    The U.S. Congress has been at the forefront of pressing the 
case for a more aggressive U.S. policy. There was an act passed 
2004--H.R. 4011, the North Korea Human Rights Act. It was 
reauthorized in 2008, signed into law by President Bush in 
2008, and now there is a bill before the Congress on--I think 
it is H.R. 1771, the North Korea Sanctions Enforcement Act, 
which adds human rights into the existing sanctions law. The 
existing sanctions law focuses exclusively on the nuclear issue 
and other national security issues.
    The act outlines specific measures to impose critical 
sanctions on the DPRK because of its violations of human rights 
against its own people. It has been reported, I believe, out of 
committee.
    The act will for the first time add some teeth to these 
public statements because until now it has only been rhetoric. 
Not that rhetoric isn't important but we need to take some 
action as well.
    Let me conclude by saying that the North Korean--and I have 
more evidence in my testimony--that the North Korean 
totalitarian edifice is eroding because of the long-term 
consequences of the famine, the collapse of the Soviet economic 
system of subsidies to its satellite states which North Korea 
was certainly one, and Pyongyang's absolute refusal to initiate 
any serious economic or political reform.
    The spread of information technology has opened a window to 
the outside world which is changing public attitudes, 
increasing public hostility within North Korea toward the 
government.
    U.S. policy ought to be to encourage these changes now at 
work in North Korea and certainly do nothing to impede the 
acceleration of these trends and to press North Korea to end 
its crimes against its own people.
    The U.S. Government should continue to press China to stop 
repatriating people who escape from North Korea into China. 
This is a clear violation of international humanitarian law 
because we know what happens to them when they go back. They 
either are executed or they are sent to the prison camps, which 
Mr. Shin is going to talk about very shortly.
    We need to raise the human rights abuse issue with the 
regime in every forum available and any direct talks with North 
Korea. We should support all Security Council efforts to take 
action against the North Korean Government based on the 
Commission of Inquiry report.
    We should press for a shutdown of the political prison 
camps and the release of prisoners, and failing that, regular 
inspections of the camps by the International Committee of the 
Red Cross or other international bodies.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Natsios follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ambassador, thank you very much for your 
testimony and for your leadership.
    Dr. Shin.

STATEMENT OF SHIN CHANG HOON, PH.D, DIRECTOR, CENTER FOR GLOBAL 
         GOVERNANCE, ASAN INSTITUTE FOR POLICY STUDIES

    Mr. C. Shin. Chairman Smith and the distinguished members 
of this subcommittee, first of all, on behalf of the Asan 
Institute for Policy Studies based in Seoul, Republic of Korea, 
I would like to thank you for inviting me to testify about 
human rights aspects in North Korea's nuclear program.
    I already submitted a 10-page written statement. Am I 
allowed to summarize the statement?
    Mr. Smith. Yes, and, you know, while there are limitations 
please be extensive.
    Mr. C. Shin. Okay. Thank you very much. The story I am 
going to tell you is about human rights abuses which occurred 
at two nuclear facilities in North Korea.
    One is Pyongsan uranium mine, a resource for the front end 
fuel cycle in North Korea's nuclear program, and the other is 
the radio chemical laboratory reprocessing facility located at 
Yongbyon, a significant resource for the back end fuel cycle.
    In the Pyongsan uranium mine, the workers were placed under 
miserable and inhumane work conditions comparable to those in 
the conventional mines where the political prisoners and the 
ordinary prisoners in the prison camps worked, as detailed in 
the United Nations Commission of Inquiry report.
    High-quality food was well distributed to the workers of 
the uranium mine, unlike the workers in the mines of the 
ordinary prison camps because the nuclear program was always 
placed as the top priority in North Korea.
    However, like the workers in the mines of ordinary prison 
camps they were also forced to work for 7 hours almost every 
day of the week and have only 1 day off in a month. They were 
subject to inhumane treatments including beatings.
    They were conducted mainly inside underground mines with 
the supervisors' intentional oversight and they were beaten by 
metallic tools inside the mine, which horrendously terrified 
the workers much more than outside the mine.
    Moreover, I heard clear statements from the interviewed 
defector that little consideration was given to work safety. 
For instance, the interviewee recalled that he never witnessed 
any ventilation system that diluted the concentration of radon 
and radio nuclides from the uranium ore and he also said that 
the quality of the anti-dust masks distributed to the workers 
was so bad and it was so hard to breathe with a mask that the 
workers inside the underground mine did not even carry them.
    Since the inhalation of uranium ore dust, which consists of 
radon, is known as a major cause of lung cancer, no anti-dust 
mask during working hours means that they were directly exposed 
to occupational diseases.
    Working for 7 hours a day may be considered not so bad but 
the work was extremely stressful and intense because of the 
increase in number of sick workers, particularly with the skin 
diseases in his unit.
    During certain periods of time he witnessed that only half 
of the unit members were available for work. The lack of 
available workers created a heavier and more intense workload 
because of the onerous allocation of daily work quotas.
    We interviewed another defector who worked at the Yongbyon 
radio chemical laboratory that was concluded during inspections 
by the international agency IAEA to be a reprocessing facility. 
He was an analyst of the concentration of high levels of 
radioactive chemicals.
    As he and his colleagues dealt with high levels of 
radiological substances and waste, they carried film badges, 
which are called dosimeters, which gauged the radiation doses 
in the workplace.
    However, the badges were monitored only once every 3 months 
and the workers were never informed of the results of these 
monitoring tests unless severe symptoms of radiation sickness 
were present and visibly apparent.
    Interestingly, he had a group of colleagues whose work 
duties included helping other workers shake off their fatigue 
and sleepiness during working hours. In addition, according to 
his testimony, the fertility of women laborers was very low. 
For instance, in his department 60 percent out of a total of 50 
workers were women but most of the women who got married could 
not conceive children while working at the factory.
    The interviewee witnessed many workers who suffered from 
nausea, vomiting, fatigue, and fevers at the workplaces, even a 
sloughing of skins. To make matters worse, North Korea, as a 
rigid totalitarian regime, controlled the flow of any sensitive 
information, especially between the workers in the nuclear 
facilities.
    This hampers the voluntary and bottom-up development of 
safety and security culture among the workers in the nuclear 
facilities. In addition, since North Korea left the NPT regime 
and the IAEA in the early 1990s, the workers could not update 
internationally-accepted safety standards and work conditions 
for over the past 20 years.
    Human factors really matter in ultra hazardous activities 
like nuclear program. North Korea's nuclear program is known as 
having developed with the sacrifice of the North Korean 
population.
    However, we should not ignore the sacrifice of workers in 
North Korea's nuclear facilities as well. If Six-Party Talks 
resume, this kind of human rights violations in nuclear 
facilities must be negotiated.
    I hope that you find this testimony to be useful to further 
discussions on North Korea's human rights abuses and crimes 
against humanity at this committee.
    Thank you very much for your attention.
    [The prepared statement of Mr. C. Shin follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Shin, thank you very much. It is more than 
useful. Thank you.
    Mr. Shin.

   STATEMENT OF MR. SHIN DONG HYUK, SURVIVOR OF NORTH KOREAN 
                          PRISON CAMP

    [The following testimony was delivered through an 
interpreter.]
    Mr. D. Shin. Thank you for making this time available in 
the midst of your busy schedule for allowing me to speak before 
you regarding the human rights situation in North Korea.
    And before I begin my testimony, I want to share something 
that causes me to feel a bit sad and disappointed before I 
begin my testimony. I escaped North Korea in 2005 and came to 
South Korea in 2006 so it has been almost 8 years since I have 
come out of North Korea.
    And the sad thing that I want to share is that during those 
8 years I have never once shared or given testimony in the 
South Korean National Assembly in South Korea.
    The fact is that the United States and EU and other 
countries have passed legislation regarding North Korean human 
rights yet South Korea has yet to pass a single legislation 
regarding the human rights of North Korea in South Korean 
National Assembly.
    And I know that when I say this the South Korean media that 
is present will perhaps edit and not fully carry what I said 
here just now--my statement--and this could be my first--this 
is my first or maybe my last opportunity to share and speak at 
such a place like this.
    So I want to again express my gratitude for giving an 
opportunity to speak about the reality of what is going on in 
North Korea right now.
    I am from North Korea. My hometown is North Korea. However, 
my situation is one where I cannot go back to my hometown, and 
the place where I was born is the political prison camp in 
North Korea.
    I was born in the prison camp and my existence in the 
political prison camp as well as the ones who are still 
remaining there is an existence not fit for human beings and 
even worse than those of animals.
    And the first thing I remember seeing with my eyes were of 
the prison guards carrying rifles and of political prisoners 
wearing prison uniforms. These were the only things that I 
remember seeing for the first time the world of the North 
Korean political prison camp.
    And my father and mother who gave birth to me were 
political prisoners also and the moment I was born I too became 
a political prisoner as well and everyone else around me except 
for the guards and prison officials who carried out punishments 
and made our lives miserable and made us suffer we were all 
political prisoners as well.
    And the prison guards who carried rifles drove into the 
heads of us young children inmates, the young and immature and 
ones who really didn't know anything, the following. They said 
to us, you are all prisoners and your parents are prisoners as 
well. In order to repay the fact that you are alive you must 
all work hard.
    You must work hard until you literally die and only then 
can you pay for your crimes. We were all young but somehow we 
knew and understood what the prison guards were telling us.
    And even though I was so young I understood what the prison 
guards were telling me. For us in the political prison camp, 
there was nothing the prisoners could do. We could only eat the 
food given to us, we could only wear the clothes given to us 
and we could only do the work given to us by the prison 
officials.
    And when I was 14 years old, just like I learned from the 
rules and regulations of the prison camp, I overheard my mother 
and older brother talking about escaping. When I overhead this 
I then reported this to the prison officials.
    And I, who had reported my mother and older brother for 
talking about escaping, I was rewarded with terrible 
indescribably cruel and painful torture, and the prison guards 
tied my feet in metal shackles and hung me upside down and also 
tortured me over--I don't know if you would understand this but 
they would torture me through the fire torture over a burning 
fire pit.
    And finally my mother and my older brother were publicly 
executed in front of all the prisoners in the camp, and this 
scene of my mother and brother being executed I had to see this 
with my own eyes.
    And I did not cry when I saw my mother and brother being 
executed. I believed this was so because in my opinion in the 
prison camp, looking back now, we did not learn growing up 
being in the prison camp that if our mother or brother were 
killed or executed that we were supposed to feel sadness or 
shed tears. This was not something that I learned or had come 
to experience in the prison camp.
    And the torture I went through at that time, the scars from 
that terrible time, are ones I still bear clearly on my body--
the scars from the metal shackles on my ankles, the burn scars 
on my back from the torture of being burned alive over a fire 
pit, the scars that formed all over my body from the beatings I 
endured.
    These vestiges of my suffering will never go away until the 
day I die. The prison guards in the prison camps think of the 
human prisoners inmates as worth less than that of animals.
    The cruelest and most excruciating method of treating the 
prisoners, punishing the prisoners, is by denying them food and 
starving them. And if a prisoner does not work well or fails to 
meet a work quota they are punished by the prison guards.
    However, before the punishment is carried out the prisoners 
are given a choice by the prison guards either by getting 
beaten or having our meal or food taken away, denied from us.
    And in my case, going hungry and being denied food was a 
suffering and pain beyond my imagination so thus I chose the 
punishment of getting beaten. And the reason why I say this 
today is that even now as I speak before you in this chamber 
there are still babies being born like I was born in the prison 
camp.
    There are still people who are getting killed by public 
executions in the camp and are dying from starvation and 
beatings in the prison camps right this moment.
    I am not here in the U.S. right now to go on sightseeing 
tours or to visit tourist spots and I am not here to visit or 
take a tour of the U.S. Capitol either.
    I am here today to testify and to tell all of you, the 
distinguished and esteemed members of the U.S. Congress sitting 
here before me, to help and safe the political prisoners in the 
North Korean political prison camps who are dying and suffering 
right now.
    I am here to exhort all of you to save my brothers and 
sisters who are suffering and dying, to save them so that they 
might live, that they will not die but survive and live and 
come out of the prison camps, that they too can see and enjoy 
the bright and beautiful world that all of us take for granted 
and accept as normal and commonplace.
    And if this issue of the political prison camp of North 
Korea is not solved through our concerted efforts and actions 
and that of the U.S. Congress or even international 
organizations such as the U.N., then all the inmates in the 
prison camps created by the North Korean dictatorship they will 
all die. And furthermore, also the citizens of North Korea who 
are suffering under this dictatorship will die as well.
    In closing, I want to share now for me the word that I love 
and the word that I cherish and that word to me is the word 
freedom.
    I believe that if the North Korean dictator himself enjoys 
freedom so should the people of North Korea enjoy and live in 
freedom as well.
    No one has the right to deny or take away freedom, which is 
the DNA of humanity, from anyone else and I am powerless, and 
therefore I plead and exhort all of you here today with your 
power and influence you can save my helpless brothers and 
sisters who are waiting for death in North Korea and you have 
the choice to save the people in the prison camps in North 
Korea.
    Once again, I would like to thank you for giving me the 
opportunity to speak before you today.
    [The prepared statement of Mr. D. Shin follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Shin, thank you for your powerful testimony, 
which has to not only mobilize but shock us into further 
action. You know, Ambassador Natsios talked about the abject 
failure with regard to the nuclear issue and I would say even 
though we have tried we have failed.
    The proof is in the lack of positive consequences, the 
inability so far to get countries that might have influence 
including Russia and China, and I think Ambassador Lee's point 
earlier about a global mobilization there needs to be a pivot 
point.
    The COI plays at least part of that role to say enough is 
enough. We need to do far more and that means a sustained 
effort. While we don't have the leverage we had with South 
Africa, and I was one of those who supported sanctions during 
the early 1980s and did so strongly, there was economic 
leverage there. But there are other points of contact that have 
not been utilized. So I, again, all of you I thank you for your 
very strong testimonies.
    Dr. Shin, you mentioned, and you footnote, how the U.N. COI 
report points out that many workers have been enslaved and died 
from accidents and disease from the mines caused by the dust. 
Is there any estimation as to how many workers have died?
    And you also pointed out the paradox of giving healthy food 
to increase productivity while simultaneously exposing them to 
occupational hazards that almost ensure cancer and early death. 
Could you elaborate on that and perhaps and then how many we 
are talking about?
    Mr. C. Shin. Mr. Chairman, the numbers of the interviewees 
were really limited in numbers so----
    Mr. Smith. You talked about the numbers of potential 
workers that were sick or died.
    Mr. C. Shin. I didn't talk about the specific numbers. But 
in case of the counts on uranium ore they didn't notice any 
death of the workers. This is because the witness was not 
involved in the mining itself this kind of--I mean, digging 
underground mines.
    Mr. Smith. Let me ask you, you know, the referral to the 
ICC if it does indeed occur the International Criminal Court, 
as we all know, while it has some very positive aspects to it 
has had only one conviction of a person of the Democratic 
Republic of the Congo, people like Bashir from Sudan, as 
Ambassador Natsios knows so well, have been indicted but still 
remains at large and ruling a country.
    The real convictions have happened at another level, 
regional courts. I have been pushing for a court for Syria 
since at least September and we had David Crane, who ran the 
Sierra Leone court and did so as the chief prosecutor, talked 
about the efficacy of those regional courts and I am wondering 
if any consideration is being given to a regional court, 
perhaps based in the Republic of Korea, that would begin 
gathering testimonies and information for the purpose of 
prosecution.
    You know, evil doesn't have to be forever and there will 
come a time when the Kims, including the current Kim, will be 
held to account and all those who were complicit.
    Has there been any thought given to a regional court that 
might be housed, like I said, with sanction from the 
international community? It might be hard to get acquiescence 
by China and Russia but even if it doesn't, I think the effort 
should be made.
    What are your thoughts on that? Because, again, the ICC has 
gone on that parallel track but they have not been effective. 
They have had 18 indictments in a dozen years, one conviction 
and, you know, but a regional court could begin really 
gathering in a very effective way, I think, testimony.
    Ambassador Natsios. This is a very odd situation but South 
Korean politics is unusual. The conservatives in South Korea 
are the ones that press the human rights issue.
    The Korean left, left of center, do not. They believe it 
compromises the ability of the South Korean Government to 
negotiate with the North Korean Government. So they don't raise 
those issues.
    Human rights in North Korea is a highly political issue in 
South Korean politics. Here, you have bipartisan support among 
Republicans and Democrats on many human rights issues. That is 
not the case in South Korea with respect to North Korea. It is 
changing among younger people.
    There is a shift of opinion I noticed when I was there a 
couple of years ago. But right now there is not going to be any 
court, I have to tell you. There is a reason Mr. Shin just told 
us that the South Korean Parliament has not had any hearings on 
this issue.
    There is no legislation that has gone through. The Ministry 
of Reunification does have a small unit that deals with North 
Korea human rights issues. However, because of the divisiveness 
of this issue in South Korean politics it is not at the 
forefront. President Park did make a very strong statement but, 
again, that is not usual.
    Am I--is it unfair to say that?
    Mr. C. Shin. I don't know.
    Ambassador Natsios. I don't want to embarrass you because--
and I know this is a sensitive issue.
    Mr. C. Shin. Well, I would like to go back to your 
questions on the regional--I mean the possibility of regional 
international criminal tribunals. Actually, in order to 
establish a certain jurisdiction--criminal jurisdiction in 
terms of individual criminal accountability there must be 
collection of the data--I mean, perpetrators and the 
activities, the atrocities committed by the perpetrators.
    In that sense, I mean, field work, field structure, which 
will be established in South Korea, will be conducive to this 
kind of collection of the data.
    However, well, as I already said criminal jurisdiction of 
the international tribunals can be established by the consent 
of the states concerned. So if there is no consent from the 
North Korea--from North Korea it is very unfortunate. It will 
be really difficult to establish regional international 
criminal tribunals.
    Mr. Smith. I would just respectfully and I understand, 
Ambassador Natsios, because I have had those conversations in 
Seoul myself, but it seems to me that when Mr. Shin says that 
his story is largely unknown and certainly how much of the 
media does pick up on the human rights situation from a day to 
day basis in the Republic of Korea and, again, that you have 
not testified before the Assembly--I hope that they would 
invite you--I mean, there is always a game changer and it seems 
to me that when people hear truth left or right they should be 
moved with compassion and empathy to embrace those who are 
suffering abuse the likes of which I can't even imagine.
    I wrote the Torture Victims Relief Act, Mr. Shin, to deal 
with post-traumatic stress and other problems and when I heard 
from witnesses what they go through, and it is a law that 
provides PTSD--post-traumatic stress disorder assistance and we 
heard from people with nightmares--I am sure you have dealt 
with nightmares and flashbacks that none of us could imagine, 
an agony.
    You sit there absolutely poised and strong and determined 
but there has to be--how can anyone go through what you go 
through without carrying agonizing scars, and I think the 
people of the Republic of Korea left and right need to hear 
that more now than ever, especially since the COI is now 
finally embracing and, as you said, Ambassador Natsios, with 
the nuclear in--you know, the paradox and human rights concerns 
rising this is an opportune moment.
    And, again, getting back to Ambassador Lee, the red line 
idea and I think that is a really strong--you know, a real red 
line on human rights coupled with, again, this global 
mobilization so that, you know, the information will be so 
compelling that the left will not be able to resist any longer 
and stop, perhaps unwittingly, but to stop the enabling.
    You know, when we have an NBA player, Dennis Rodman, going 
over there woefully uninformed about these abuses, we are going 
to send him a copy and the other NBA players who went to 
Pyongyang to read what you have said in the hopes that they 
will raise it in some way now or in the future if they ever 
have further contact with Mr. Kim.
    So this is a defining moment and I think your testimonies 
and Ambassador Lee's statement are extremely important in that 
process. So thank you. If you would like to respond and then I 
will yield to my friend.
    Mr. D. Shin. I have come to realize and I have seen with my 
own eyes the international society and many international 
organizations coming together and dealing with this issue of 
human rights in North Korea.
    Earlier this year in March in Geneva when I spoke at the 
U.N. Human Rights Council, in the table or seat before me in 
front of me there were diplomats from the DPRK, North Korean 
diplomats who were watching me and monitoring me as I spoke and 
as I was participating in the meeting, and I also had the 
opportunity to speak in New York on April 17 for the Arria 
function for the meeting at the U.N. in New York.
    And I have also come to know that many scholars and many 
organizations and groups they have stated that many North 
Koreans have come into contact with South Korean media, South 
Korean drama, South Korean movies through USB sticks, through 
access to computers, through the exchange of information on the 
black markets in North Korea, and it is true that the people in 
North Korea through viewing South Korean dramas and watching 
South Korean movies and being active in the black market and 
listening to foreign broadcasts through radio all these things, 
they are happening in North Korea right now and I believe that 
these things are needed by the North Korean people.
    However, what I want to say is that these things are things 
that happened many decades ago as well and I tend to have 
somewhat of a negative outlook regarding how many more decades, 
how many more years it will take of North Korean people 
watching South Korean dramas or South Korean movies for change 
or for things to happen in the country.
    And there is a reason why I have to say things like this in 
this manner and what I want to say is that a person dying is 
not something that happens over many years or many decades.
    A person can end his life in a second or a couple of 
seconds. More than 60 years ago when 6 million Jews were 
murdered by the Nazis, it took less than 4 or 5 years for that 
genocide to happen, for that large number of people to be 
killed, and almost 40 years ago when almost 2 million people 
were killed in the killing fields of Cambodia that took about 5 
or 6 years as well.
    And all of you know that 20 years ago when the Rwanda 
genocide happened 800,000 people getting killed, that took only 
about 90 days. And I say this because for North Korea the same 
thing and the same future can happen in North Korea as well.
    And what I want to say is that the dictatorship in North 
Korea is without comparison compared to the other dictatorships 
throughout history more evil, more terrible than any other 
dictatorships in history is what we see in North Korea right 
now.
    And my thought is that yes, radios, DVDs and exposure to 
foreign media those are good and those are needed for the North 
Korean people. But what I want to say is that the international 
community coming together and forcefully warning and talking 
and telling the North Korean regime, the dictatorship, of what 
is going on, that is what is needed is what I want to tell all 
of you here today.
    Mr. Smith. I would like to yield to the former U.S. 
attorney from Pennsylvania, a prosecutor of great distinction, 
Mr. Marino.
    Mr. Marino. Thank you, Chairman. Ambassador and Doctor, I 
don't know if you recall--please acknowledge if you do, if not 
I will repeat it--my questions to our--to the Ambassador 
concerning what role the U.N. can play in this. Would you--
either of you or both of you care to respond to my question/
statement, Ambassador?
    Ambassador Natsios. I know there are Americans who are 
critical of the United Nations. I have worked with the United 
Nations for 25 years now. They can play a very useful role but 
we should not exaggerate their effectiveness.
    There were 32 resolutions on the atrocities in Darfur. It 
didn't restrain Omar al-Bashir's government in terms of just 
the resolutions. But that combined with media coverage, human 
rights reports, U.S. sanctions, it is part of a larger picture.
    So you create a wave that gets bigger and bigger and 
eventually it does affect behavior and even in a totalitarian 
regime like North Korea. No dictatorship likes having their 
crimes put out there in public in front of everyone else.
    So the U.N. can be very useful. I think the COI report, 
frankly, is going to be one of the most powerful instruments we 
have because when people say they don't like the United States 
and that this is an American obsession, there is no truth to 
any of that, I mean, there was no Americans on the commission.
    It was the Chief Justice of the Australian Supreme Court 
and the Attorney General of Indonesia and a leader of civil 
society in Serbia who were on that commission. No Americans. So 
when you have that kind of a body making these statements in 
great detail and then using the term crimes against humanity it 
can be used as an instrument to constantly repeat.
    There is a lot of anti-Americanism in Europe now. I get 
upset with it but it is there. That is the reality. So but 
Shin's book is being read all over Europe now. I mean, his book 
has sold hundreds of thousands of copies and it is a 
bestseller. There is no other way of putting it.
    Who is reading it? It is not just Americans. So I think the 
more international this effort becomes, we have Latin American 
and African countries voting with us on this on the U.N. 
Security Council--it is a very powerful thing. It is a very 
powerful thing.
    So I think we should simply be unrelenting in keeping the 
pressure up on the prison camp but also these larger issues as 
well. I mean, people don't even go to the camps. They just get 
executed in the villages.
    The people I interviewed, I think it was 30, I don't 
remember exact number of people, but I did 2- or 3-hour 
interviews and they saw people executed in their own villages 
summarily. There were no courts.
    One of them was caught killing an oxen during the famine. 
It was a capital offense. Ripping up a photograph of Kim Jong 
Il or graffiti attacking the royal family. When that happens 
you can be executed on the spot. They don't even bother sending 
you to the camps.
    Mr. C. Shin. Okay. Yes. Thank you very much. Human rights 
is a universal value, which needs. Multilateral approaches and 
crimes against humanity is also an international matter, not a 
domestic matter in which the concept of responsibility to 
protect can be involved in.
    You mentioned the role of the United Nations. The United 
Nations is the right forum to deal with those kinds of 
multilateral issues. When it comes to the role of the 
Secretary-General in the United Nations, well, actually the 
Secretary-General is an international servant who does not 
represent any national identity.
    But it is really difficult to handle the issues which he 
cares about--and the states related to his nationality. So when 
considering the conflict of interest, for instance, well, the 
former United Nations Secretary-General, Boutros Boutros-Ghali 
and other former United Nations Secretary-Generals, have dealt 
with their regional issues not directly but by other 
representatives and other Under-Secretary-Generals of the 
United Nations.
    So we can apply this kind of role of the Under-Secretary-
Generals of the United Nations with regard to the human rights 
issues in North Korea as well.
    Mr. Marino. We also need to get countries on the continent 
of Africa voting more with the United States on issues like 
this. Mr. Shin, I just have to ask how did you escape?
    Mr. D. Shin. I had no specific plan or thoughts of escaping 
when I did escape.
    Mr. Marino. Let me stop you there. I just thought of 
something. I don't want you to reveal something that would let 
the North Koreans know how people could escape. Okay. That is 
fine. Go ahead, sir.
    Mr. D. Shin. So for the first 24 years of my life, I did 
not know anything about the outside world but through meeting 
somebody who had been in the outside world who had been sent to 
the prison camp and meeting this person and knowing and hearing 
about the outside world and the food that people outside the 
camps ate I began to have curiosity and interest regarding the 
food and what people ate outside the prison camp.
    And simply put, my plan when I decided to escape was that I 
would escape and just for one meal--at least for one meal and I 
would eat until I was very full and if I was caught and 
publicly executed then I would die satisfied, having eaten a 
full meal.
    So the person that told me about the outside world who had 
been sent to the prison camp he and I attempted to escape 
together from the prison camp by crossing the electrified 
fence. And, of course, the prison camp system in North Korea is 
not one that is easy for the prisoners to escape from.
    So my colleague--the inmate who was escaping with me, he 
was caught in the electrified fence and he unfortunately did 
not make it out and I myself--my legs were caught in the 
electrified fence and I was injured on my way out from the 
prison camp crossing through the electrified fence.
    So many inmates in the prison camps in North Korea do not 
know about what is going on in the outside world. They cannot 
access information from the outside world.
    So for me when I heard about what was going on in the world 
outside the prison camp for me the biggest interest that I had 
was in the food, the meals that the people ate in the world 
outside the prison camp.
    Mr. Marino. Thank you. I am going to have to read the book. 
The chairman pushed my button when he raised Dennis Rodman's 
name and I am going to make it perfectly clear that Dennis 
Rodman does not represent the United States, any part of it, 
when it comes to North Korea.
    He is an embarrassment to the United States and the only 
way that he can redeem himself is to publicly, here in the 
United States, condemn Kim Jong Un and his criminal thugs and 
not visit North Korea again until he persuades his sidekick 
over there to step down and stop killing people.
    But we know that that is probably not going to happen. I am 
a little bit of a history buff and a very amateur presidential 
historian, and Ambassador or Dr. Shin, can you answer this 
question for me? If Truman would have listened to MacArthur, 
would we be where we are at today and would China have entered 
into the war to cause a full-fledged third world war?
    Ambassador Natsios. That is a very good question. I 
understand why President acted as he did--and I am a fan of 
President Truman. I think he is one of our great Presidents. He 
created the post-World War II international order and I think 
MacArthur is one of our greatest military leaders in the 20th 
century.
    But he was insubordinate and that is unacceptable, in my 
view, for any military commander to be insubordinate to the 
President of the United States. However, on the matter of 
whether his plan was right, I think he was right and I don't 
think we would be dealing with this horror that the North 
Korean people have had to endure all these years if President 
Truman had taken a--but a lot of Americans had already died, a 
lot of Koreans had already died. I understand why he did it but 
I think he was wrong.
    Mr. Marino. China had already crossed into North Korea.
    Ambassador Natsios. They drove us back and then we drove 
them back.
    Mr. Marino. Do you have a theory as to how much more China 
would have been involved in expanding their troops into North 
Korea?
    Ambassador Natsios. I think we now know from histories that 
have been written what Mao's motivation was and it was Stalin 
actually who precipitated this whole thing because he wanted to 
take pressure off him in Europe.
    He wanted us to move troops from the European theater to 
Korea and that is what he succeeded in doing. The Soviet 
archives were open. They are not open anymore. But in the 1990s 
we knew a lot more.
    Mr. Marino. So much for democracy, huh?
    Ambassador Natsios. Pardon me?
    Mr. Marino. So much for democracy.
    Ambassador Natsios. So much for democracy. We know, for 
example--this is the most embarrassing thing that has happened 
to the North Korean Government--is the Russian archives show 
that Kim Il Sung was simply a tool of Stalin. He was put in 
power by Stalin.
    He was ordered by Stalin to do what he did and the notion 
that he was some independent guerilla is a complete fabrication 
of North Korean propaganda. He was a puppet of the Soviet 
leadership for their own purposes.
    Mr. Marino. I agree. Doctor.
    Mr. C. Shin. Well, I would like to say it like this. The 
Korean War is kind of the unsung victory of the alliance 
between the Republic of Korea and the United States. It is a 
total contrast when we compare the current situation of human 
rights in both Koreas. This would be an answer to your 
questions.
    Mr. Marino. Thank you, gentlemen.
    Mr. Smith. Just one final concluding question, if I could. 
I have lots but the hour is late. What is next for this U.N. 
Security Council, in your view?
    As you, Dr. Shin, point out and as we all know the U.N. COI 
recommends that the U.N. Security Council refer the human 
rights situation in North Korea to the ICC as well as enact and 
implement targeted sanctions against those who appear to be 
responsible for carrying out crimes against humanity, and as 
you point out in your testimony it is not the people of North 
Korea that are targeted.
    It is individuals and that has been the move increasingly 
in legislation here as well, whether it be the Belarus 
Democracy Act or the Magnitsky Act or any of these others, 
targeting the people who are doing their horrific crimes.
    But when do you think the U.N. Security Council will take 
any of this up? You know, are we talking about weeks? Months? 
God forbid, years? Not years. Okay. When do you think?
    Ambassador Natsios. Do you have any sense?
    Mr. C. Shin. No.
    Ambassador Natsios. Trying to predict what the United 
Nations is going to do is a difficult thing. I think it is a 
matter of months.
    Mr. Smith. There is a Human Rights Council coming up in----
    Ambassador Natsios. Yes, there is.
    Mr. Smith. The ICC.
    Ambassador Natsios. So there are many forums in which these 
issues can be raised and I am hoping the United States will 
continue to raise them with other countries and I actually 
think the more books are sold--Mr. Shin's--actually the more 
pressure that there will be for other countries, not only in 
the Council but in other forums within the United Nations to 
press for action, and I think this relentless pressure on every 
front is what is going to change things.
    They don't want to be isolated. They are already isolated. 
But there is another factor I just want to say that is going on 
that we are not getting at this hearing, that is not 
understanding in the United States and there are many people in 
South Korea in denial.
    The Chinese are taking over the North Korean economy. They 
believe that they are a huge security risk. They don't want 
them to have nuclear weapons or the missiles because it is 
threatening the stability of the peninsula and South Korea is a 
major trading partner, as you said, with China.
    They don't want threats to South Korea either and the 
Chinese are upset with the North Korean leadership. So what 
they have done are two things that are fascinating. Since 2011 
there has been a massive increase in trade, billions of 
dollars. It is in extractive industry, it is coal, it is 
minerals, some rare earth metals, gold, and the Chinese are 
bringing technology in and there is not many--they are not 
manufacturing anything in North Korea that they want but North 
Korean--the Chinese industrial output needs these metals and 
coal.
    And it is in the billions of dollars and that money is 
flowing into North Korea now. The second thing the Chinese are 
doing----
    Mr. Smith. And at fair value? Because what they are doing 
in Africa is that----
    Ambassador Natsios. It is not fair value.
    Mr. Smith [continuing]. Pennies on the dollar.
    Ambassador Natsios. Because they are the only trading 
partner--serious trading partner of North Korea----
    Mr. Smith. So they are fleecing North Korea.
    Ambassador Natsios. Yes, and Chinese merchants are the only 
ones doing business with North Korea now. The other thing that 
is happening in the North is that the Chinese are building a 
massive industrial complex in China along the border with the 
Tumen River and the reason they are doing that is the way the 
Chinese economy--I don't know if you know this--but because of 
what has happened in Hong Kong under the British when they went 
to a free market economy there was this massive economic 
growth.
    Chinese workers from China were going every day to work in 
the factories in Hong Kong. They were coming back with their 
money, buying TV sets. They were better fed than anyone else in 
China was, and some Beijing party bureaucrats went down saying 
how come everybody is better fed--how come people are better 
dressed--how come they have television sets in their houses and 
no one else in China does, and they told the story.
    These workers are all in Hong Kong. So they went and looked 
at what Hong Kong had done and they made a policy decision to 
experiment. This was under Deng Xiaoping. And they decided to 
do what Hong Kong did in the provinces around Hong Kong. It 
worked. They extended it to the rest of the country.
    I believe what the Chinese are doing now with this massive 
industrial--there are some articles that have been written on 
it in some depth. They are building an industrial 
infrastructure and investing billions of dollars in China 
hoping the North Koreans will go across the border, work there, 
bring the money back and that will begin to change the North 
Korean economy the same way that the Chinese economy was 
changed through Hong Kong.
    I believe that is what their plan is. Whether it will work 
is a different matter. But the North Koreans privately are very 
nervous that the Chinese in fact are economically taking over 
their country, and they are. You know the currency that is used 
other than dollars and the South Korean currency in the 
markets? They don't use North Korean currency. They are 
useless. They use Chinese currency. So they don't even have 
control over their own monetary policy.
    Mr. Marino. Chairman, if I may--if I may. I am a student of 
China and you bring up a good topic and, you know, China--
people think China wants to rule the world militarily. That is 
not true.
    They are doing--they are trying to do it financially and 
they will do it financially. Look at the investments China is 
making on the east coast of the continent of Africa--their 
refineries, the oil, the gas.
    Look at the investments that they are making in Afghanistan 
for precious metals, rare earths because of the technology age 
that we need these materials to run our iPads and our phones 
and who knows what is coming up in the near future.
    They are very smart when it comes to that and the fact that 
they undervalue their currency, the yuan, and overvalue our 
currency, U.S. dollar, we better watch out because it is going 
to come to a point where China is going to step forward.
    If we are downgraded again in this country financially 
China will step forward and say to the world, take a look at 
us. They will let their yuan rise to its real level of value, 
our dollar will plummet, inflation will skyrocket.
    China is buying gold by the boatloads and they are going to 
say look, we have virtually no debt. We have most of the 
outside debt from the United States and we can back it with 
gold.
    So we better get our act together here and in Europe and 
around the rest of the rest of the world when it comes to 
finances concerning China.
    Mr. Smith. Dr. Shin, did you want to speak to----
    Mr. C. Shin. Yes.
    Mr. Smith [continuing]. What's next in the U.N. Security 
Council?
    Mr. C. Shin. When it comes to the Chinese position on 
international criminal justice I think we are not talking about 
the normal violation of human rights.
    We are talking about widespread, systematic and gross 
violations of human rights which amount to crimes against 
humanity that the International Criminal Court has jurisdiction 
over.
    So we have to persuade China not to exercise, I mean, 
political power such as veto powers in the United Nations 
Security Council when it comes to--when dealing with these 
kinds of crimes against humanity--I mean, jus cogens peremptory 
norms that deal with prevention of crimes against humanity and 
genocide.
    Mr. Smith. Thank you.
    Ambassador Natsios. Let me make one last statement about 
the food issue with respect to China. China has been giving 
food to North Korea for some time but they just give it to 
them. We know what the North Koreans do with it. They give it 
to the military.
    They give it to the capital city, to the Communist Party, 
to the Secret Police who get even a higher ration than military 
officers do. The Secret Police are critically important to the 
regime's survival.
    I have tried to tell the Chinese it is not in their 
interest to simply turn the food over. Who is escaping into 
China? The elites? Of course not. It is poor people who are 
hungry. That is the principal reason they leave.
    That is why Mr. Shin tried to escape from prison. It wasn't 
because of freedom--he didn't know what freedom meant. He said 
it in his book. He said it today. He was hungry, okay. If the 
Chinese Government wants to stop, create a positive incentive 
for stopping the mass population movements across the border, 
which they have cut down anyway--there has been a 50-percent 
drop in defections in the last couple of years and I put that 
in my testimony--what the Chinese need to do is to work with 
the United Nations and the United States.
    If they are going to do a food program, insist on 
international conventions that can prevent the food from being 
diverted by the elite. Why?
    If you feed the poor there is going to be less motivation 
for crossing the border. It is in the Chinese interest, 
frankly, to follow international conventions on these issues 
because if you create the positive incentive the incentive 
won't be there for them to leave.
    Mr. Smith. Are there any plans afoot for the World Food 
Programme or USAID? Because that--the diversion issue was 
always big, I know.
    Ambassador Natsios. There was a time----
    Mr. Smith. So the Chinese would be the ones we need to have 
that conversation----
    Ambassador Natsios. There was talk about a food aid program 
but after they did the last nuclear test that shut down 
everything. Even I, and you know how strong I have been on this 
issue, I said I am fed up with them.
    Mr. Smith. The thought of the International Committee of 
the Red Cross--are any monitors getting into the prisons? Is 
that----
    Ambassador Natsios. We have raised it.
    Mr. Smith. I know you have and you raised it again in your 
testimony.
    Ambassador Natsios. I don't think they are going to let 
them in there.
    Mr. Smith. Okay.
    Mr. D. Shin. There is one last thing that I would like to 
say to you, and what I would say is that when we see the young 
dictator, Kim Jong Un of North Korea, living in luxury, 
drinking expensive wine and smoking expensive cigars and Dennis 
Rodman going over there and spending time in luxury with Kim 
Jong Un, the American people saw this and saw that Dennis 
Rodman was helping Kim Jong Un in this sort of lifestyle that 
he was leading.
    And also that almost more than half of the tourists that go 
to North Korea are U.S. citizens. Americans are going to North 
Korea and that despite the economic sanctions and the decrees 
from the State Department telling American citizens not to 
travel to North Korea, American citizens on their free will are 
travelling to North Korea and they are spending money on their 
own and the money that they spend is allowing Kim Jong Un to 
continue to live in luxury, to drink the fine wine and to smoke 
the fancy cigars and footing the luxurious lifestyle of Kim 
Jong Un.
    And as a victim of the North Korean dictatorship, when I 
see American citizens going to North Korea as tourists, 
spending money, that is something that I oppose and something 
that breaks my heart when I see that. And it is very 
unfortunate for me to see American citizens going there as 
tourists and spending their money that is supporting the 
dictatorship.
    When I see that happening, that is very disappointing for 
me to realize what is going on.
    Mr. Smith. Ambassador Natsios, Dr. Shin, Mr. Shin, thank 
you so very much for your powerful testimony and I can assure 
you we will widely disseminate this and will help not only me 
but members of this committee to be more informed and 
absolutely more motivated.
    And Ambassador Lee, thank you for your statement and your 
call for a global mobilization and that red line. I think that 
is something we really need to stress.
    Without objection, a testimony submitted by the United 
States Commission on International Religious Freedom will be 
made part of the record. Anything further?
    Mr. Marino. I agree with Mr. Shin concerning travel. That 
is another failure on the part of the Obama administration and 
that he could very easily put a stop to that.
    Mr. Smith. The hearing is adjourned and thank you very 
much.
    [Whereupon, at 4:51 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               
   Material submitted for the record by the Honorable Lee Jong Hoon, 
        Ambassador-at-Large for Human Rights, Republic of Korea

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
